OIG Investigative Reports Press Release, St. Thomas. VI 11/08/2012 -  Virgin Islands Senator Alvin Williams, Jr. Indicted for Operating and Participating in a Criminal Enterprise that Engaged in Bribery, Wire Fraud and Mail Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Department of Justice
RONALD W. SHARPE
United States Attorney
District of the Virgin Islands
Ron de Lugo Federal Building and U.S. Courthouse
5500 Veterans Drive, Suite 260
Charlotte Amalie
St. Thomas, VI 00802-6424
PRESS RELEASE
FOR IMMEDIATE RELEASE
Thursday, November 8, 2012
Virgin Islands Senator Alvin Williams, Jr. Indicted for Operating and Participating in a Criminal Enterprise that Engaged in Bribery, Wire Fraud and Mail Fraud
St. Thomas, USVI - A federal grand jury today returned an indictment charging Virgin Islands
Senator Alvin Williams, Jr., 34, with operating and participating in a criminal enterprise whose members
and associates, engaged in illegal activities, including bribery, mail fraud and wire fraud. Two of
Williams' legislative staff members, including Kim Blackett, 29, also were charged in the indictment.
The indictment was announced by United States Attorney for the District of the Virgin Islands Ronald W.
Sharpe, Federal Bureau of Investigation Special Agent-in-Charge Joseph S. Campbell, Drug Enforcement
Administration Special Agent-in-Charge Eric Barnard, United States Marshal Cheryl Jacobs, Internal
Revenue Service Criminal Investigation Division (IRS- CI) Special Agent-in-Charge José A. Gonzalez,
Department of Education Special Agent-in-Charge Yessyka Santana, Virgin Islands Police Commissioner
Henry White, and Virgin Islands Inspector General Steven van Beverhoudt. All of these agencies
comprise a joint federal and local Public Corruption Task Force.
"The prosecution of public corruption is a top priority of the U.S. Attorney's Office," U.S.
Attorney Sharpe said. "It is a breach of the public trust for public officials to use their office for personal
gain. I encourage anyone with direct knowledge of illegal acts or who has any information concerning
corruption in the Virgin Islands to call the Public Corruption Task Force at (340) 715-6516."
"Despite previous indictments of law enforcement officers and other public officials, some
individuals continue their efforts to use public office for private financial gain," said FBI Special
Agent-in-Charge Joseph S. Campbell. "The FBI is committed to fighting public corruption and will
continue to target individuals who do not uphold their responsibilities as public officials and therefore,
undermine the public trust."
According to the indictment, on September 5, 2009, Williams gave the Commissioner of the
Virgin Islands Department of Public Works $10,000 in cash in an attempt to bribe the Commissioner with
regard to granting future work to Ace Development, Inc., a company in which Williams had an interest.
The indictment, which contains both Virgin Islands and federal charges, further alleges that from
February 21, 2007, to November 18, 2011, Williams solicited a bribe from the developers of the Raphune
Vista housing project on St. Thomas. The indictment also alleges that Williams promoted legislative
action and supported the authorization of funding and zoning of the project in exchange for which Ace
Development, Inc. received a contract related to the construction of the Raphune Vista project. The
indictment further alleges that, as part of the contract, Ace Development, Inc. used and/or rented to the
developers of the housing project, pieces of construction equipment.
The indictment alleges that between September 1, 2008, and September 31, 2008, Williams
solicited and received a bribe of $10,000.00 in campaign contributions from the developers of the Tutu
Park wind turbine project, in exchange for Williams' influence and promotion of legislation in support
of the wind turbine project. The indictment also alleges that between September 22, 2008, and
September 2009, Williams solicited a bribe of $25,000.00 in campaign contributions from the
developers of the Tutu Park wind turbine project, in exchange for Williams' influence and promotion of
legislation in support of the project.
The indictment also charges that from January 2006 to December 2011, Williams and a legislative
staff member failed to deposit certain campaign contributions into the requisite campaign account, made
individual expenditures and cash expenditures other than petty cash expenditures from a campaign
account, and submitted false Campaign Disclosure reports that failed to include certain campaign
contributions. The indictment further charges that in the Summer of 2010 and in August 2010, Williams
solicited bribes to legislative staff members by offering to increase the staff members' salaries, allegedly
for merit; in exchange for which the staff members would withdraw a portion of the increased salaries in
cash and make the cash available to Williams. The indictment further alleges that from September of
2010, to July 28, 2011, Williams received a bribe when he increased the salary of a legislative staff
member, allegedly for merit; in exchange for the legislative staff member withdrawing a portion of the
increased salary in cash and making the cash available to Williams.
The indictment also alleges that from April 2007 to February 2008, and from January 2008 to
October 5, 2011, Williams and a legislative staff member committed federal wire fraud as Williams
sought online degrees from the University of Phoenix. The indictment alleges that the staff member
falsely submitted various documents that were generated, created and authored by others under the
direction of and in the name of Williams. The indictment also charges that from January of 2008, to
October 5, 2011, Williams and defendant Kim A. Blackett, a member of Williams' legislative staff
defrauded the Virgin Islands government by using legislative and public funds for doing non-legislative
work, namely pursuing an on-line university degree for Williams.
"As the law enforcement arm of the U.S. Department of Education, the Office of Inspector General
will aggressively pursue anyone who games the Education system for their own selfish purpose," said
Yessyka Santana, Special Agent-in-Charge of the U.S. Department of Education Office of Inspector
General Southeastern Regional Office.
The indictment seeks forfeiture of any property which constitutes or is derived from the proceeds
of Williams' alleged illegal activities, including proceeds in the amount of $1,129,365.76.
"These individuals have allegedly abused their powers by utilizing their positions to discreetly
conduct illegal activities," said IRS-CI Special Agent-in-Charge José A. Gonzalez. "IRS-CI is
committed to following the money trail to ensure that public officials who use their office to line their
own pockets are brought to justice and deprived of their ill-gotten gains."
If convicted of the charges, Williams and Blackett face a maximum penalty of 20 years in prison
and $250,000 in fines.
An indictment is merely a formal charge that a defendant has committed a violation of the federal
criminal laws. Every defendant is presumed innocent unless and until proven guilty in a court of law.
The case is being investigated by the Public Corruption Task Force. It is being prosecuted by
Assistant United States Attorneys Kim R. Lindquist, Nolan Paige and Kelly Lake.
Top
Printable view
Last Modified: 11/27/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov